                            NATIONAL SCIENCE FOUNDATION
                              WASHINGTON, D.C. 20550

                                   March 8, 1990




             -
       Office of
I n s p e c t o r General




   Dear
   This is in response to your January 22 letter to the Inspector
   General of the National Science Foundation.     It concerns a
   publication of the National Academy of Sciences prepared under
   the chairmanship of                      ,   NSF was one of a
   large number of spons
                    -                         but is not otherwise
   involved.
   Your letter claims that this publication fraudulently represents
   some of your past work.   We note, however, that you are really
   alleging inaccuracy in the way your work is represented, rather
   than fraud in the legal sense. We find that there is no clear
   indication that the publication is discussing your work at all,
   so that there are no grounds for saying your work is misrepre-
   sented,
   Your letter also claims that the publication fails to cite your
   patents and other source documents. On the assumption that the
   work under discussion is in fact yours, we note that this publi-
   cation is a popular review of the current state of knowledge in
   chemistry.   As such, it does not give citations to any of the
   information sources it uses. There is no reason to believe that
   this is damaging to the original researchers or to users of the
   publication.
  I should point out that                     is deceased, so that
  your letter to him will unfortunately remaln unanswered.
                -                                    --

yd :   -   2.
           c.+       ./ <cr
                         /


   We find that your January 22 letter contains no substantive
   allegations. Consequently, this Office plans to take no further
   action.
   I hope this information is useful.

                                        Sincerely yours,


                                            /s/



   bcc :
   OIG Subject File
   OIG Chron
                    i:gc:3/8/90
   3TA2 -9 0.' 31 1 3
